NO. 21-___________
__________________________________________
SUPREME COURT OF THE UNITED STATES
__________________________________________
WALTER SKIPPER,
Petitioner
vs.
A&M DOCKSIDE REPAIR, INCORPORATED, &
HELIX RESOURCES, LLC
Respondents
__________________________________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Fifth Circuit
__________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
__________________________________________
LAWRENCE BLAKE JONES
BLAKE JONES LAW FIRM, LLC
701 Poydras Street, Suite 4100
New Orleans, Louisiana 70139
Telephone: (504) 525-4361
Facsimile: (504) 525-4380
Email: jones@nola-law.com

APPENDIX – TABLE OF CONTENTS

DOCUMENT

PAGE

1.

District Court Order and Reasons

1

2.

U.S. Fifth Circuit Court of Appeals, Opinion, 9.16.20

21

3.

U.S. Fifth Circuit Court of Appeals, Denial of Rehearing

29

4.

District Court Final Judgment

31

5.

Judgment, U.S. Fifth Circuit Court of Appeals

32

6.

Rule 8 of the Federal Rules of Civil Procedure

34

7.

Rule 15 of the Federal Rules of Civil Procedure

36

8.

Rule 16 of the Federal Rules of Civil Procedure

38

6.

Petitioner’s Amended Complaint

41

7.

Answer to Amended Complaint by A&M Dockside

46

8.

Answer to Original and Amended Complaint by Helix Resources

49

9.

Answer to Third Party Complaint by Helix Resources

53

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 1 of 20

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WALTER SKIPPER

CIVIL ACTION

VERSUS

NO. 18-6164

A&M DOCKSIDE REPAIR, INC.,
ET AL.

SECTION “R” (4)

ORDER AND REASONS
Before the Court is A&M Dockside Repair, Inc.’s and Helix Resources,
LLC’s joint motion for partial summary judgment.1 Because A&M was
Skipper’s borrowing employer for the purposes of the LHWCA, the Court
grants the motion.

I.

BACKGROUND
This case arises out of a workplace accident. At the time of the

accident, plaintiff Walter Skipper was employed by third-party defendant
Helix Resources, LLC, as a painter and blaster.2 On August 11, 2017, plaintiff
was working on a barge in a shipyard that is owned and operated by

1
2

R. Doc. 48.
R. Doc. 15 at 2 ¶ 5.
1

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 2 of 20

defendant A&M Dockside Repair, Inc. 3 In the course of performing his
duties, plaintiff allegedly fell into an open manhole cover on the barge and
suffered severe injuries. 4
On June 22, 2018, Skipper filed a complaint alleging negligence against
A&M and Cashman Equipment Corporation, a party that owned the barge
and has since been dismissed from the case.5 On January 17, 2019, the Court
granted A&M’s motion for leave to file a third-party complaint against
Helix. 6 A&M and Helix have now filed a joint motion for partial summary
judgment on the basis that Skipper was a borrowed servant of Helix, that
A&M was acting as Skipper’s borrowing employer, and that therefore
compensation and medical payments are Skipper’s sole remedy under the
Longshore & Harbor Workers’ Compensation Act. 7

II.

LEGAL STANDARD
Summary judgment is warranted when “the movant shows that there

is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v.

3
4
5
6
7

Id.
Id.
See R. Doc. 1; see also R. Doc. 23.
R. Doc. 25.
R. Doc. 48-1.
2

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 3 of 20

Catrett, 477 U.S. 317, 322-23 (1986); Little v. Liquid Air Corp., 37 F.3d 1069,
1075 (5th Cir. 1994) (en banc) (per curiam). “When assessing whether a
dispute to any material fact exists, [the Court] consider[s] all of the evidence
in the record but refrain[s] from making credibility determinations or
weighing the evidence.” Delta & Pine Land Co. v. Nationwide Agribusiness
Ins. Co., 530 F.3d 395, 398-99 (5th Cir. 2008). All reasonable inferences are
drawn in favor of the nonmoving party, but “unsupported allegations or
affidavits setting forth ‘ultimate or conclusory facts and conclusions of law’
are insufficient to either support or defeat a motion for summary judgment.”
Galindo v. Precision Am. Corp., 754 F.2d 1212, 1216 (5th Cir. 1985) (quoting
10A Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure
§ 2738 (2d ed. 1983)); see also Little, 37 F.3d at 1075. “No genuine dispute
of fact exists if the record taken as a whole could not lead a rational trier of
fact to find for the nonmoving party.” EEOC v. Simbaki, Ltd., 767 F.3d 475,
481 (5th Cir. 2014).
If the dispositive issue is one on which the moving party will bear the
burden of proof at trial, the moving party “must come forward with evidence
which would ‘entitle it to a directed verdict if the evidence went
uncontroverted at trial.’” Int’l Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257,
1264-65 (5th Cir. 1991) (quoting Golden Rule Ins. Co. v. Lease, 755 F. Supp.

3

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 4 of 20

948, 951 (D. Colo. 1991)). “[T]he nonmoving party can defeat the motion” by
either countering with evidence sufficient to demonstrate the “existence of a
genuine dispute of material fact,” or by “showing that the moving party’s
evidence is so sheer that it may not persuade the reasonable fact-finder to
return a verdict in favor of the moving party.” Id. at 1265.
If the dispositive issue is one on which the nonmoving party will bear
the burden of proof at trial, the moving party may satisfy its burden by
pointing out that the evidence in the record is insufficient with respect to an
essential element of the nonmoving party’s claim. See Celotex, 477 U.S. at
325.

The burden then shifts to the nonmoving party, who must, by

submitting or referring to evidence, set out specific facts showing that a
genuine issue exists. See id. at 324. The nonmovant may not rest upon the
pleadings, but must identify specific facts that establish a genuine issue for
resolution. See, e.g., id.; Little, 37 F.3d at 1075 (“Rule 56 ‘mandates the entry
of summary judgment, after adequate time for discovery and upon motion,
against a party who fails to make a showing sufficient to establish the
existence of an element essential to that party’s case, and on which that party
will bear the burden of proof at trial.’” (quoting Celotex, 477 U.S. at 322
(emphasis added))).

4

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 5 of 20

III. DISCUSSION
A&M and Helix argue for partial summary judgment under the
Longshore & Harbor Workers’ Compensation Act. The LHWCA limits the
remedy of a longshoreman or harbor worker against his employer to
compensation and medical benefits. See 33 U.S.C. § 933(i) (“The right to
compensation or benefits under this chapter shall be the exclusive remedy to
an employee when he is injured . . . by the negligence or wrong doing of any
other person . . . in the same employ.”). It is undisputed that Skipper is a
longshoreman or harbor worker and is thus covered by the LHWCA. A&M
and Helix argue that Skipper was the “borrowed servant” of Helix, that A&M
was borrowing plaintiff, and therefore Skipper’s remedies are limited by the
LHWCA. See Gaudet v. Exxon Corp., 562 F.2d 351, 355 (5th Cir. 1977)
(analyzing the borrowed servant defense in the context of the LHWCA).
Skipper opposes the motion for partial summary judgment on two
grounds. First, Skipper argues that the borrowed servant defense has been
waived, because it was not properly asserted in A&M’s answer. Second,
Skipper argues that genuine issues of fact remain that preclude a grant of
summary judgment. The Court addresses each argument in turn.

5

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 6 of 20

A.

Waiver

Skipper argues that defendants’ motion for partial summary judgment
must be denied because both A&M and Helix failed to raise it as an
affirmative defense in their answers. Affirmative defenses are pleadings
governed by Rule 8 of the Federal Rules of Civil Procedure. A defendant is
required to “state in short and plain terms its defenses to each claim asserted
against it” and “affirmatively state any avoidance or affirmative defense.”
Fed. R. Civ. P. 8(b)(1)(A), 8(c)(1). In Woodfield v. Bowman, 193 F.3d 354
(5th Cir. 1999), the Fifth Circuit held that affirmative defenses are subject to
the same pleading requirements as a complaint and articulated a “fair notice”
standard for pleading affirmative defenses. Id. at 362. Under this standard,
a defendant is required to plead an affirmative defense “with enough
specificity or factual particularity to give the plaintiff ‘fair notice’ of the
defense that is being advanced.” Id. (citation omitted). Failure to adequately
plead an affirmative defense can result in a waiver of the defense. Rogers v.
McDorman, 521 F.3d 385 (5th Cir. 2008).
But failure to strictly comply with Rule 8(c) does not always result in
waiver. The purpose of the rule “is to give the opposing party notice of the
affirmative defense and a chance to argue why it should not apply.” Pasco v.
Knoblauch, 566 F.3d 572, 578 (5th Cir. 2009) (citation omitted). Therefore,

6

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 7 of 20

“an affirmative defense is not waived if the defendant ‘raised the issue at a
pragmatically sufficient time and [plaintiff] was not prejudiced in its ability
to respond.’” Id. at 577 (quoting Allied Chem Corp. v. Mackay, 695 F.2d 854,
855-56 (5th Cir. 1983)). The Court does “not take a formalistic approach to
determine whether an affirmative defense was waived.” Id. Rather, it
“look[s] at the overall context of the litigation” to determine whether
“evidence of prejudice exists and sufficient time to respond to the defense
remains before trial.” Id. Indeed, the Fifth Circuit has “repeatedly rejected
waiver arguments when a defendant raised an affirmative defense for the
first time at summary judgment—or even later.” Motion Med. Tech., LLC v.
Thermotek, Inc., 875 F.3d 765, 772 (5th Cir. 2017).
It is therefore necessary to determine whether defendants raised the
defense “at a sufficiently pragmatic time,” and whether plaintiff was
prejudiced in his ability to respond. Motion Med. Tech., 875 F.3d at 771.
Here, Skipper first had reasonable notice the borrowed servant defense may
be asserted months ago, when Helix appeared in the suit. Indeed, in its
answer to A&M’s third-party complaint, which is part of the record of this
case, Helix asserts that “Mr. Skipper was on a mission for his employer and
performing employment-related activities” 8 and that because Helix was

8

R. Doc. 29 at 9.
7

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 8 of 20

Skipper’s employer, Skipper has “no right to seek tort remedies from Helix,
nor any other party to attempt to pass through alleged fault to Helix.” 9 Helix
also alleged that Skipper’s “sole remedy against it is for compensation under
the Louisiana Worker’s Compensation Act or, alternatively, under the
Longshoremen’s and Harbor Workers’ Compensation Act.” 10 Although Helix
does not incant the words “borrowed servant defense” these allegations offer
reasonable notice to Skipper that the defense would be asserted in this case.
Given that Helix’s answer was submitted in February, plaintiff had
reasonable notice, and the defense was raised in a sufficiently pragmatic
time.
Skipper is not prejudiced by the Court’s consideration of the borrowed
servant defense at this juncture.

Plaintiff provides fulsome, reasoned

responses to defendants’ arguments in his opposition. 11 Skipper even cites
to various exhibits, including deposition testimony, in his response.12 And
although plaintiff asserts that there still exist genuine issues of fact, he argues
these are issues the trier of fact must decide—not that additional discovery is
required to resolve the issues. Indeed, Skipper does not request additional

9
10
11
12

Id.
Id.
See R. Doc. 51.
See R. Doc. 51 at 4.
8

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 9 of 20

time for discovery or suggest that additional discovery would cure any
prejudice he may face.
Because Skipper had adequate notice that the borrowed servant
defense would be asserted and is not prejudiced in responding to the
defendants’ motion for partial summary judgment, the Court finds that
defendants did not waive the borrowed servant defense.
B.

Genuine Issues of Fact

Skipper also avers that the motion for partial summary judgment must
be denied because issues of material fact still exist with respect to whether
A&M was acting as Skipper’s borrowing employer. The Fifth Circuit has held
that “in absence of substantial evidence to the contrary . . . the issue of
whether a relationship of borrowed servant exist[s] is a matter of law.” Ruiz
v. Shell Oil Co., 413 F.2d 310, 341 (5th Cir. 1969). Here, the relevant facts are
not in dispute. Rather, plaintiff disputes the legal conclusion that should be
drawn from the facts. This is a question of law for the Court.
Courts have developed a nine factor test to determine whether
borrowed servant status exists. The nine factors are:
(1) Who has control over the employee and the work
he is performing, beyond mere suggestion of details
or cooperation?
(2) Whose work is being performed?

9

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 10 of 20

(3) Was there an agreement, understanding, or
meeting of the minds between the original and the
borrowing employer?
(4) Did the employee acquiesce in the new work
situation?
(5) Did the original employer terminate his
relationship with the employee?
(6) Who furnished tools and place for performance?
(7) Was the new employment over a considerable
length of time?
(8) Who had the right to discharge the employee?
(9) Who had the obligation to pay the employee?
Gaudet v. Exxon Corp., 562 F.2d 351, 355 (5th Cir. 1977). “No single factor,
or combination of them, is determinative.” Brown v. Union Oil Co. of Cal.,
984 F.2d 674, 676 (5th Cir. 1993). Although in the respondeat superior
context, the first factor—control—is often emphasized, in the tort immunity
context, the Fifth Circuit has focused on the fourth, fifth, sixth, and seventh
factors. Melancon v. Amoco Prod. Co., 834 F.2d 1238, 1245 n.12 (5th Cir.
1988) (citing Gaudet, 562 F.2d at 356-57). This is because “these factors deal
with the question of whether the circumstances of the employee’s
employment are such that the defendant ‘should be considered an employer
and not a third party under the LHWCA.’” Id. (citing Gaudet, 562 F.2d at
357).

10

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 11 of 20

1.

Control

The first inquiry is control. The evidence establishes that A&M, as a
borrowing employer, exerted significantly greater control over Skipper than
did his nominal employer, Helix. Brian Mayon, the yard superintendent at
A&M, testified that Mr. Skipper’s only supervisors on the barge where he
worked and was injured were A&M foremen, and that they were “in charge
of all of [Helix’s] workers.”13 He also testified that he was to direct Mr.
Skipper’s work.14 Skipper similarly testified that A&M Dockside was “the
boss”15 and that Helix employees “were just laborers.”16 Skipper testified that
A&M dockside had responsibility for him and his co-workers,17 and he refers
to Mayon as “boss man.”18 This testimony from both plaintiff and the yard
foreman strongly indicates that A&M exercised control over Skipper and
directed his work, not Helix.
Skipper argues that genuine issues of material fact exist as to control
that would preclude summary judgment.

In particular, he argues that

Skipper and the foreman were equals and that Skipper was not subordinate

13
14
15
16
17
18

Motion for Partial Summary Judgment Exhibit 2 at 45:13-17.
Id. at 45:18-46:1.
Motion for Partial Summary Judgment Exhibit 4 at 89:5-10.
Id. at 89:13.
Id. at 90:16-19.
Id. at 94:20-22.
11

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 12 of 20

to Mayon or to A&M employees. This argument is plainly refuted by the
evidence discussed above. Plaintiff cites to a separate portion of Skipper’s
deposition to support his argument. But the deposition testimony Skipper
cites in no way indicates that Skipper was not subordinate to Mayon. Mayon
stated that Skipper “seemed very familiar with the oilfield” and “worked with
the oilfield his whole life.” 19 This does not suggest that Skipper and Mayon
were equals, or that Mayon was not directing Skipper’s actions. Indeed,
immediately after that statement, Mayon listed directions he gave Skipper,
stating: “I told him he was going with the other hands we had and a couple
of guys from my crew [to] clean tanks. He asked how they were cleaning
them. I told him we had some big vacuum systems . . . I showed him who he
was going to be working with . . . .”20 Accordingly, the Court finds that the
“control” factor favors a finding of borrowed servant status.
2.

Whose Work?

The second factor—whose work was being performed—also weighs in
favor of borrowed servant status. Mayon testified that Skipper’s work was to
do the repairing and cleaning of the barge for A&M. 21 Skipper does not
contest these facts. Rather, Skipper argues that as a hired laborer, he was

19
20
21

Opposition Exhibit 1 at 22:4-6.
Id. at 22:6-14.
Motion for Partial Summary Judgment Exhibit 2 at 45:21-46:21.
12

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 13 of 20

truly doing the work of Helix, whose business is hiring out laborers. He
therefore argues he was only incidentally doing the work of A&M.
Skipper’s argument is without merit. That Helix’s business is hiring
out labors does not negate that Skipper was doing A&M’s work at the time of
his injury. Skipper cites two cases in support of his argument. He first cites
to language from Rollans v. Unocal Exploration Corp., No. 93-431, 1993 WL
455731 (E.D. La. Nov. 4, 1993). 22 In that case, a cook who worked for a
company that supplied food services was hired to cook for the crew on an
offshore drilling platform, and he was injured after slipping on bacon grease.
Id. at *1. There, the court found that the cook was performing the work of
the catering company, not the oil platform. Id. at *2. But the court in Rollans
emphasized that the plaintiff was supervised by someone from the catering
company and did not answer to any of the defendant’s personnel. Id. And
the job of a cook, who works for a catering company hired to provide catering
to an oil platform’s workers, is different from the case at hand. Here, Helix
hires out laborers such as Skipper to do the actual work of A&M—servicing

Skipper’s citation for this language is Mathis v. Union Exploration
Partners, Ltd., No. 90-2009, 1991 WL 42570 (E.D. La. Mar. 26, 1991). But
the relevant language is absent from that case, which does not analyze this
factor in depth. The Court therefore focuses its analysis on Rollans.
22

13

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 14 of 20

and repairing boats—not to do a task ancillary to that, such as cooking, which
is not A&M’s work.
Skipper also cites to Boston Old Colony Insurance. Co. v. Tiner
Associates, Inc., 288 F.3d 222 (5th Cir. 2002). But that case states only that
under Louisiana law, where a general employer’s business is hiring out its
employees and it retains control of the employee at the time of the
negligence, it remains liable for the torts of those borrowed employees. Id.
at 229 (citing Morgan v. ABC Mfr., 710 So. 2d 1077 (La. 1998)). It does not
speak to whose work is being performed. The Court therefore finds that this
factor, too, weighs in favor of borrowed servant status.
3.

Agreement

The agreement between A&M and Helix states that Helix’s employees,
including Skipper, “shall at all times be deemed an independent contractor
and the relationship of these parties to Client shall not at any time constitute
any relationship other than that of an independent contractor.” 23 The Court
finds this factor weighs against the finding of a borrowed servant
relationship.
Skipper argues that the existence of this clause necessarily creates a
material issue of fact, and the partial summary judgment must be denied.

23

Partial Motion for Summary Judgment Exhibit 1 at 1.
14

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 15 of 20

But there are no facts in dispute here—all parties agree on the language of
the contract and that it was binding. And courts have found borrowed
servant status notwithstanding the existence of such a clause. See, e.g.,
Gaudet v. Exxon Corp., 562 F.2d 351, 358 (5th Cir. 1977) (finding a borrowed
servant relationship when other factors other than agreement weighed
heavily in favor of finding the employee was a borrowed servant); Crawford
v. BP Corp., N.A., 2015 A.M.C. 1119 (E.D. La. 2015) (finding the parties’
performance had modified the contract so that the independent contractor
clause was not dispositive). The Court therefore finds that although this
factor weighs in plaintiff’s favor, it does not require the Court to forgo
granting the motion for partial summary judgment.
4.

Did the Employee Acquiesce?

There is every indication that Skipper acquiesced to the work
arrangement with A&M. He knew he would be working for A&M, and there
is no evidence he took issue with working for that company. Skipper took
instructions from Mayon seemingly without issue 24 and viewed A&M as “the
boss.” 25 Indeed, Skipper does not present any argument with respect to this

24
25

Opposition Exhibit 1 at 22:6-14.
Partial Motion for Summary Judgment Exhibit 4 at 89:9-13.
15

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 16 of 20

factor. The Court therefore finds this factor weighs in favor of finding a
borrowed servant relationship.
5.

Did the Original Employer Terminate its Relationship?

As both parties recognize, this factor asks not whether Skipper’s
relationship with Helix was severed, but whether he maintained contact with
Helix, and whether he was supervised exclusively by A&M. See Hotard v.
Devon Energy Prod. Co. L.P., 308 Fed. App’x 739, 742 (5th Cir. 2009).
Although Skipper avers that there is no evidence that he lacked
communication with Helix or that he was supervised solely by A&M
employees, he offers no evidence to suggest he communicated with Helix or
was otherwise supervised by Helix employees. And the evidence refutes
Skipper’s position. Skipper testified that there were no Helix supervisors at
the job site.26

And, as discussed above, Skipper was taking directions

exclusively from A&M foremen. 27 The Court therefore finds that this factor
weighs in favor of borrowed servant status.
6.

Tools and Place

Although Helix did provide some personal protection equipment, the
primary tools used to be complete the work of cleaning the barge were

26
27

Partial Motion for Summary Judgment Exhibit 4 at 89:2-7.
See, e.g., id. at 89:9-13.
16

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 17 of 20

provided by A&M. 28 This includes the vacuum that Skipper was directed to
use. 29 All of the relevant work was to take place on the Chasman Equipment
barge, which A&M dockside was hired to clean.30 Skipper presents no
argument that this factor weighs against finding he was a borrowed servant.
The Court therefore finds this factor weighs in favor of finding a borrowed
servant relationship.
7.

Length of Time

It is undisputed that Skipper worked for A&M for only six days, and
that the job at issue was to last only two weeks. This is a brief period of time
and cannot weigh in favor of finding a borrowed servant relationship. But it
also does not weigh against finding a borrowed servant relationship.
Caselaw in the Fifth Circuit states that this factor is “significant only when
the special employer employs the employee for a considerable length of
time.” See Capps v. N.L. Baroid-NL Indus., Inc., 784 F.2d 615, 618 (5th Cir.
1986). But when an employee is injured early in his employment, the factor
is neutral. Id. Indeed, the Fifth Circuit has found this factor neutral even
when an employee worked for a borrowing employer for as long as a month.
See Brown v. Union Oil Co. of California, 984 F.2d 674, 679 (5th Cir. 1993).

28
29
30

See Partial Motion for Summary Judgment Exhibit 2 at 47:18-48:8.
Id.
Id. at 45:21-46:18.
17

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 18 of 20

The Court therefore finds this factor neutral. Even were the Court to find
that the short duration of Skipper’s employment with A&M weighed against
finding a borrowed servant relationship, the Court would still find that a
borrowed servant relationship exists because of the number of the other
factors that weigh heavily in favor of finding Skipper was a borrowed servant.
8.

Right to Discharge

The inquiry under this factor is not which entity had the power to
terminate the injured plaintiff’s employment outright, but whether the
borrowing employer had the authority to terminate the employee’s services
with the borrowing employer itself. See Melancon, 834 F.2d at 1246. Mayon
testified that A&M had the right to fire Mr. Skipper and ask Helix to replace
him with another employee, and could have “rejected Mr. Skipper as a
temporary worker if they wanted to.” 31 Skipper presents no argument that
this factor weights against a finding of borrowed servant status. The Court
therefore finds that this factor weighs in favor of finding borrowed servant
status.
9.

Obligation to Pay

The final factor asks who had the obligation to pay Skipper. Plaintiff
points out that the contract between A&M and Helix required Helix to pay

31

Partial Motion for Summary Judgment Exhibit 2 at 50:19-23.
18

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 19 of 20

Skipper’s wages.32 But this does not end the inquiry. When the funds the
general employer uses to pay the employee are received from entity the
employee is contracted out to, that entity in effect pays the employee. See
Capps, 784 F.2d at 618. That is the case here. Mayon testified that A&M
paid Helix, which in turn paid Skipper.33 Skipper does not dispute this
arrangement.

The Court therefore finds this factor weighs in favor of

borrowed servant status.
10.

Conclusion

In sum, seven of the nine borrowed servant factors favor a borrowed
servant relationship, while only one suggests that a borrowed servant
relationship does not exist. One factor is neutral. Notably, the fourth, fifth,
and sixth factors—three of the four factors the Court must weigh most
heavily—favor a borrowed servant relationship. Accordingly, the Court finds
that A&M was Skipper’s borrowing employer for the purposes of the
LHWCA, and that therefore A&M and Helix are entitled to partial summary
judgment.

Partial Motion for Summary Judgment Exhibit 1 at 1 (requiring the
contractor, Helix, to “[A]ssume responsibility for the payment of wages to
each employee furnished to Client [A&M] hereunder.”).
33
Partial Motion for Summary Judgment Exhibit 2 at 51:6-10.
32

19

Case 2:18-cv-06164-SSV-KWR Document 60 Filed 01/02/20 Page 20 of 20

IV.

CONCLUSION
For the foregoing reasons, the Court GRANTS the defendants’ motion

for partial summary judgment.

2nd day of January, 2020.
New Orleans, Louisiana, this _____

_____________________
SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

20

Case: 20-30278

Document: 00515567469

Page: 1

Date Filed: 09/16/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 16, 2020

No. 20-30278
Summary Calendar

Lyle W. Cayce
Clerk

Walter Skipper,
Plaintiff—Appellant,
versus
A&M Dockside Repair, Incorporated,
Defendant-Third Party Plaintiff—Appellee,
versus
Helix Resources, L.L.C.,
Third Party Defendant—Appellee.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-6164
Before King, Smith, and Wilson, Circuit Judges.

21

Case: 20-30278

Document: 00515567469

Page: 2

Date Filed: 09/16/2020

Per Curiam:*
Plaintiff-appellant Walter Skipper appeals the district court’s decision
granting partial summary judgment in favor of defendants-appellees A&M
Dockside Repair (“A&M”), Inc., and Helix Resources, L.L.C. (“Helix”).
The district court based its decision on the application of the borrowed
servant defense. We AFFIRM.
I.
On August 11, 2017, Skipper was working on a barge in one of A&M’s
shipyards when he allegedly fell into an open manhole cover and suffered
severe injuries. At the time of the accident, Skipper was employed by Helix
as a painter and blaster. Helix provided Skipper’s services to A&M pursuant
to a services agreement.
Following the accident, Skipper filed a negligence action against
A&M, and A&M then filed a third-party complaint against Helix. After A&M
and Helix resolved the dispute between them, they filed a joint motion for
partial summary judgment. The district court granted the joint motion on the
grounds that “A&M was Skipper’s borrowing employer for the purposes of
the [Longshore & Harbor Workers’ Compensation Act (the “LHWCA”)].”
If this conclusion holds, compensation and medical payments are Skipper’s
sole remedy under the LHWCA. See 33 U.S.C. § 933(i) (“The right to
compensation or benefits under this chapter shall be the exclusive remedy to
an employee who is injured . . . by the negligence or wrong of any other person
. . . in the same employ.”). Skipper filed a timely notice of appeal.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

22

Case: 20-30278

Document: 00515567469

Page: 3

Date Filed: 09/16/2020

II.
We review a district court’s order granting summary judgment de
novo viewing all facts and evidence in the light most favorable to the nonmoving party. Burrell v. Prudential Ins. Co. of Am., 820 F.3d 132, 136 (5th Cir.
2016). Whether an employee is a borrowed servant is a question of law and,
therefore, also reviewed de novo. See Gaudet v. Exxon Corp., 562 F.2d 351,
358 (5th Cir. 1977); Ruiz v. Shell Oil Co., 413 F.2d 310, 314 (5th Cir. 1969).
But we review a district court’s decision regarding whether a party has
waived an affirmative defense for abuse of discretion. Motion Med. Techs.,
L.L.C. v. Thermotek, Inc., 875 F.3d 765, 771 & n.8 (5th Cir. 2017).
Skipper makes two arguments why summary judgment was improper.
First, Skipper argues that A&M and Helix waived the borrowed servant
defense. Second, Skipper argues that even if the defense was not waived,
there is a genuine dispute as to material facts that precludes summary
judgment. We address each argument in turn.
The district court concluded that the borrowed servant defense was
not waived. We agree. Federal Rule of Civil Procedure 8 requires a defendant
to “state in short and plain terms its defenses to each claim asserted against
it” and “affirmatively state any avoidance or affirmative defense.” FED. R.
CIV. P. 8(b)(1)(A), (c)(1). Although Skipper is correct that neither A&M nor
Helix expressly raised the borrowed servant defense as an affirmative defense
in their answers, this failure does not necessarily result in waiver. See Motion
Med., 875 F.3d at 772 (observing that we have “repeatedly rejected waiver
arguments when a defendant raised an affirmative defense for the first time
at summary judgment—or even later”). As we have previously held, “an
affirmative defense is not waived if the defendant ‘raised the issue at a
pragmatically sufficient time and [the plaintiff] was not prejudiced in its

23

Case: 20-30278

Document: 00515567469

Page: 4

Date Filed: 09/16/2020

ability to respond.’” Pasco v. Knoblauch, 566 F.3d 572, 577 (5th Cir. 2009)
(quoting Allied Chem. Corp. v. Mackay, 695 F.2d 854, 855-56 (5th Cir. 1983)).
In this case, the district court concluded that Skipper had reasonable
notice and was not prejudiced by the district court’s consideration of the
borrowed servant defense at the summary judgment stage. First, the district
court observed that Helix made various assertions in its answer that
implicated the borrowed servant defense. For example, Helix asserted that
Skipper was on a “mission” for Helix and had “no right to seek tort remedies
from Helix, nor any other party to attempt to pass through alleged fault to
Helix as no Helix employees or supervisors were present at the time of the
incident and Helix relinquished control, supervision, and direction to
A&M.” Additionally, Helix asserted that Skipper’s sole remedy was for
compensation under the Louisiana Worker’s Compensation Act or,
alternatively, the LHWCA. 1 Second, the borrowed servant defense was
raised explicitly in a partial summary judgment motion filed months before
trial. Third, Skipper made thorough and reasoned responses to the
arguments that A&M was Skipper’s borrowing employer and made no
argument that he needed additional discovery on this issue. Therefore, the
district court did not abuse its discretion in concluding that the defense was
not waived.
Next, Skipper argues that there remains a genuine dispute as to
material facts as to whether A&M was acting as his borrowing employer. In
Ruiz v. Shell Oil, we set out nine factors relevant to whether the borrowed
servant defense applies. No one factor is dispositive. See Brown v. Union Oil

1

Skipper’s argument that these assertions did not put him on notice of the
borrowed servant defense because they were raised in Helix’s answer to A&M’s third-party
complaint is unavailing. To be sure, as the district court correctly observed, Helix’s answer
is part of the record in this case.

24

Case: 20-30278

Document: 00515567469

Page: 5

Date Filed: 09/16/2020

Co. of Ca., 984 F.2d 674, 676 (5th Cir. 1993). Skipper argues that there is a
genuine dispute as to material fact regarding four of the nine factors and that
two of the factors are neutral. We address each of the nine factors in turn.
(1) Who has control?
This inquiry focuses on whether A&M or Helix exerted greater
control over Skipper. Skipper argues that because a trier of fact could
conclude that he was acting in cooperation with A&M employees rather than
in subordination to their directions, there is a genuine dispute as to material
fact regarding control that precludes summary judgment. But Skipper’s own
testimony refutes this argument. Specifically, Skipper established that he
followed the directions of A&M’s yard superintendent, referring to A&M as
the “boss.” Additionally, the yard superintendent testified that Skipper’s
only supervisors were A&M foremen and that he directed Skipper’s work.
Indeed, Helix did not have any supervisors at the jobsite. Skipper also argues
that his status as an independent contractor per the terms of the services
agreement between A&M and Helix, creates a genuine dispute as to material
fact regarding control. This argument is meritless. In fact, we have previously
upheld the application of the borrowed servant defense despite this type of
clause. See, e.g., Gaudet, 562 F.2d at 358 (observing that the “trial court could
have concluded that the test for borrowed employee status was met
regardless of the ultimate resolution of the factual matter of the agreement
between the employers”). Therefore, we find that this factor favors
borrowed servant status.
(2) Whose work is being performed?
This inquiry focuses on whether Skipper was performing A&M’s or
Helix’s work. Skipper argues that there is a genuine dispute as to material
fact regarding whose work was being performed. He argues that he was only
incidentally performing A&M’s work and instead performing Helix’s work,

25

Case: 20-30278

Document: 00515567469

Page: 6

Date Filed: 09/16/2020

whose business as a temporary labor company is the hiring out of personnel.
Skipper’s argument is meritless. The yard superintendent testified that
Skipper repaired and cleaned the barge for A&M. In other words, Skipper
performed A&M’s work. To that end, Skipper’s reliance on cases where a
contracted laborer was performing ancillary work is misplaced. In this case,
it is clear that Helix hired out its employees to do A&M’s work. Therefore,
we find that this factor favors borrowed servant status.
(3) Was there an agreement or understanding between Helix and
A&M?
Skipper argues that there is a genuine dispute as to material fact
regarding this factor in light of the independent contractor clause in the
agreement between Helix and A&M. Specifically, the agreement provides
that Skipper “shall at all times be deemed an independent contractor and the
relationship of these parties to [A&M] shall not at any time constitute any
relationship other than that of independent contractor.” First, no one
disputes the existence of this clause, and second, as discussed above, we have
previously found borrowed servant status despite the presence of this type of
clause. See Gaudet, 562 F.2d at 358. Although this clause weighs in Skipper’s
favor, there is no genuine dispute as to any material fact regarding this factor.
Therefore, this factor does not compel a denial of summary judgment.
(4) Did Skipper acquiesce in the new work situation?
This factor focuses on whether the employee agreed to the work
arrangement. There is no evidence that Skipper took issue with working for
A&M, and in any event, he does not argue that there is a genuine dispute as
to any material fact regarding this factor. We find that this factor favors
borrowed servant status.
(5) Did Helix terminate its relationship with Skipper?

26

Case: 20-30278

Document: 00515567469

Page: 7

Date Filed: 09/16/2020

Skipper argues that this factor should have weighed against the
borrowed servant defense or have been considered as neutral because there
is no evidence that Helix terminated its relationship with him. Skipper
mischaracterizes the focus of this inquiry. Specifically, this inquiry focuses
on whether Skipper maintained contact with Helix and not whether his actual
employment relationship was severed. See Hotard v. Devon Energy Prod. Co.
L.P., 308 F. App’x 739, 742 (5th Cir. 2009) (citing Amoco Melancon v. Amoco
Prod. Co., 834 F.2d 1238, 1246 (5th Cir. 1988)). To that end, Skipper offers
no evidence to show that he was in communication with or supervised by
Helix employees. In fact, the evidence cuts against Skipper’s position given
his testimony and the yard superintendent’s testimony that there were no
Helix supervisors at the jobsite. Therefore, we find that this factor favors
borrowed servant status.
(6) Who furnished the tools and place for performance?
Skipper does not make arguments about this factor. In any case, the
majority of the tools were provided by A&M, and the place of performance
was A&M’s shipyard. We find that this factor favors borrowed servant status.
(7) Was the new employment over a considerable length of time?
There is no dispute that Skipper worked for A&M for six days.
Skipper argues that this factor should have weighed against the borrowed
servant defense or have been considered as neutral. The district court did, in
fact, consider this factor to be neutral. We agree with the district court.
Indeed, we have previously found that this factor is “significant only when
the [borrowing] employer employs the employee for a considerable length of
time,” but where an employee is injured early in the employment, the factor
is neutral. See Capps v. N.L. Baroid-NL Indus., Inc., 784 F.2d 615, 618 (5th
Cir. 1986). Therefore, we find this factor to be neutral.
(8) Who had the right to discharge Skipper?

27

Case: 20-30278

Document: 00515567469

Page: 8

Date Filed: 09/16/2020

This inquiry focuses not on which entity had the power to terminate
Skipper’s employment outright but simply whether A&M had the authority
to terminate Skipper’s services with A&M. See Capps, 784 F.2d at 618
(explaining that the proper focus of the inquiry is whether the borrowing
employer has the “right to terminate [the borrowed employee’s] services
with itself”). Skipper does not make arguments about this factor. In any case,
A&M had the right to discharge Skipper from the jobsite and request a new
worker. Therefore, we find that this factor favors borrowed servant status.
(9) Who had the obligation to pay the employee?
Skipper argues that there is a genuine dispute as to material fact
regarding this factor. He is incorrect. A&M paid Helix, which in turn paid
Skipper, in effect, out of the funds from A&M. When the funds used to pay
the employee are received from the entity the employee is contracted out to,
we have held that that entity, in effect, pays the employee. See id. Therefore,
we conclude that this factor weighs in favor of borrowed servant status.
Despite Skipper’s arguments to the contrary, there is no genuine
dispute as to any material fact, and the district could determine that A&M
was Skipper’s borrowing employer. Because seven of the nine borrowed
servant factors favor borrowed servant status, we conclude that Skipper was
a borrowed employee and A&M his borrowing employer. Therefore, A&M
and Helix were entitled to partial summary judgment.
III.
For the foregoing reasons, the decision of the district court is
AFFIRMED.

28

29

30

Case 2:18-cv-06164-SSV-KWR Document 63 Filed 04/01/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

WALTER SKIPPER

:
:
:
:
:
:
:
:
:

v.
A&M DOCKSIDE REPAIR, INC.,
et al

CIVIL ACTION
NO. 18-6164
SECTION “R”(4)
JUDGE VANCE
MAG. JUDGE ROBY

: : : : : : : : : : : : : : : : :
FINAL JUDGMENT

IT IS HEREBY ORDERED all claims of Walter Skipper against A&M Dockside
Repair, Inc. are hereby dismissed, with prejudice, in accordance with the Order and Reasons
issued by this Court on January 2, 2020 (R.Doc. 60), with each party to bear their own costs; and
IT IS FURTHER ORDERED that the claims asserted against Helix Resources, LLC by
A&M Dockside Repair, Inc. are hereby dismissed, with prejudice, as of compromise, with each
party to bear their own costs.

1st day of ______________,
April
New Orleans, Louisiana this ______
2020.

_________________________________________
UNITED STATES DISTRICT JUDGE

31

Case:
20-30278
Document: 00515611452
Page:
1 10/22/20
Date Filed:
10/22/2020
Case
2:18-cv-06164-SSV-KWR
Document 69
Filed
Page
1 of 2

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

___________

September 16, 2020

No. 20-30278
Summary Calendar
___________

Lyle W. Cayce
Clerk

Walter Skipper,
Plaintiff—Appellant,
versus
A&M Dockside Repair, Incorporated,
Defendant-Third Party Plaintiff—Appellee,
versus
Helix Resources, L.L.C.,
Third Party Defendant—Appellee.
____________________________
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-6164
____________________________
Before King, Smith, and Wilson, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.

32

Case:
20-30278
Document: 00515611452
Page:
2 10/22/20
Date Filed:
10/22/2020
Case
2:18-cv-06164-SSV-KWR
Document 69
Filed
Page
2 of 2
20-30278

IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.
IT IS FURTHER ORDERED that appellant pay to appellees the
costs on appeal to be taxed by the Clerk of this Court.

Certified as a true copy and issued
as the mandate on Oct 22, 2020
Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

2
33

15

FEDERAL RULES OF CIVIL PROCEDURE

Rule 8

(2) promptly file a supplemental statement if any required
information changes.
(As added Apr. 29, 2002, eff. Dec. 1, 2002; amended Apr. 30, 2007, eff.
Dec. 1, 2007.)
Rule 8. General Rules of Pleading
(a) CLAIM FOR RELIEF. A pleading that states a claim for relief
must contain:
(1) a short and plain statement of the grounds for the court’s
jurisdiction, unless the court already has jurisdiction and the
claim needs no new jurisdictional support;
(2) a short and plain statement of the claim showing that the
pleader is entitled to relief; and
(3) a demand for the relief sought, which may include relief
in the alternative or different types of relief.
(b) DEFENSES; ADMISSIONS AND DENIALS.
(1) In General. In responding to a pleading, a party must:
(A) state in short and plain terms its defenses to each
claim asserted against it; and
(B) admit or deny the allegations asserted against it by
an opposing party.
(2) Denials—Responding to the Substance. A denial must fairly
respond to the substance of the allegation.
(3) General and Specific Denials. A party that intends in good
faith to deny all the allegations of a pleading—including the
jurisdictional grounds—may do so by a general denial. A party
that does not intend to deny all the allegations must either
specifically deny designated allegations or generally deny all
except those specifically admitted.
(4) Denying Part of an Allegation. A party that intends in
good faith to deny only part of an allegation must admit the
part that is true and deny the rest.
(5) Lacking Knowledge or Information. A party that lacks
knowledge or information sufficient to form a belief about the
truth of an allegation must so state, and the statement has
the effect of a denial.
(6) Effect of Failing to Deny. An allegation—other than one
relating to the amount of damages—is admitted if a responsive
pleading is required and the allegation is not denied. If a responsive pleading is not required, an allegation is considered
denied or avoided.
(c) AFFIRMATIVE DEFENSES.
(1) In General. In responding to a pleading, a party must affirmatively state any avoidance or affirmative defense, including:
• accord and satisfaction;
• arbitration and award;
• assumption of risk;
• contributory negligence;
• duress;
• estoppel;
• failure of consideration;
• fraud;
• illegality;

34

Rule 9

FEDERAL RULES OF CIVIL PROCEDURE

16

• injury by fellow servant;
• laches;
• license;
• payment;
• release;
• res judicata;
• statute of frauds;
• statute of limitations; and
• waiver.
(2) Mistaken Designation. If a party mistakenly designates a
defense as a counterclaim, or a counterclaim as a defense, the
court must, if justice requires, treat the pleading as though it
were correctly designated, and may impose terms for doing so.
(d) PLEADING TO BE CONCISE AND DIRECT; ALTERNATIVE STATEMENTS; INCONSISTENCY.
(1) In General. Each allegation must be simple, concise, and
direct. No technical form is required.
(2) Alternative Statements of a Claim or Defense. A party may
set out 2 or more statements of a claim or defense alternatively or hypothetically, either in a single count or defense
or in separate ones. If a party makes alternative statements,
the pleading is sufficient if any one of them is sufficient.
(3) Inconsistent Claims or Defenses. A party may state as many
separate claims or defenses as it has, regardless of consistency.
(e) CONSTRUING PLEADINGS. Pleadings must be construed so as to
do justice.
(As amended Feb. 28, 1966, eff. July 1, 1966; Mar. 2, 1987, eff. Aug.
1, 1987; Apr. 30, 2007, eff. Dec. 1, 2007; Apr. 28, 2010, eff. Dec. 1, 2010.)
Rule 9. Pleading Special Matters
(a) CAPACITY OR AUTHORITY TO SUE; LEGAL EXISTENCE.
(1) In General. Except when required to show that the court
has jurisdiction, a pleading need not allege:
(A) a party’s capacity to sue or be sued;
(B) a party’s authority to sue or be sued in a representative capacity; or
(C) the legal existence of an organized association of persons that is made a party.
(2) Raising Those Issues. To raise any of those issues, a party
must do so by a specific denial, which must state any supporting facts that are peculiarly within the party’s knowledge.
(b) FRAUD OR MISTAKE; CONDITIONS OF MIND. In alleging fraud or
mistake, a party must state with particularity the circumstances
constituting fraud or mistake. Malice, intent, knowledge, and
other conditions of a person’s mind may be alleged generally.
(c) CONDITIONS PRECEDENT. In pleading conditions precedent, it
suffices to allege generally that all conditions precedent have occurred or been performed. But when denying that a condition
precedent has occurred or been performed, a party must do so with
particularity.
(d) OFFICIAL DOCUMENT OR ACT. In pleading an official document
or official act, it suffices to allege that the document was legally
issued or the act legally done.

35

23

FEDERAL RULES OF CIVIL PROCEDURE

Rule 15

(5) Third-Party Defendant’s Claim Against a Nonparty. A thirdparty defendant may proceed under this rule against a nonparty who is or may be liable to the third-party defendant for
all or part of any claim against it.
(6) Third-Party Complaint In Rem. If it is within the admiralty or maritime jurisdiction, a third-party complaint may
be in rem. In that event, a reference in this rule to the ‘‘summons’’ includes the warrant of arrest, and a reference to the
defendant or third-party plaintiff includes, when appropriate,
a person who asserts a right under Supplemental Rule
C(6)(a)(i) in the property arrested.
(b) WHEN A PLAINTIFF MAY BRING IN A THIRD PARTY. When a
claim is asserted against a plaintiff, the plaintiff may bring in a
third party if this rule would allow a defendant to do so.
(c) ADMIRALTY OR MARITIME CLAIM.
(1) Scope of Impleader. If a plaintiff asserts an admiralty or
maritime claim under Rule 9(h), the defendant or a person who
asserts a right under Supplemental Rule C(6)(a)(i) may, as a
third-party plaintiff, bring in a third-party defendant who
may be wholly or partly liable—either to the plaintiff or to
the third-party plaintiff—for remedy over, contribution, or
otherwise on account of the same transaction, occurrence, or
series of transactions or occurrences.
(2) Defending Against a Demand for Judgment for the Plaintiff.
The third-party plaintiff may demand judgment in the plaintiff’s favor against the third-party defendant. In that event,
the third-party defendant must defend under Rule 12 against
the plaintiff’s claim as well as the third-party plaintiff’s
claim; and the action proceeds as if the plaintiff had sued both
the third-party defendant and the third-party plaintiff.
(As amended Dec. 27, 1946, eff. Mar. 19, 1948; Jan. 21, 1963, eff. July
1, 1963; Feb. 28, 1966, eff. July 1, 1966; Mar. 2, 1987, eff. Aug. 1, 1987;
Apr. 17, 2000, eff. Dec. 1, 2000; Apr. 12, 2006, eff. Dec. 1, 2006; Apr.
30, 2007, eff. Dec. 1, 2007; Mar. 26, 2009, eff. Dec. 1, 2009.)
Rule 15. Amended and Supplemental Pleadings
(a) AMENDMENTS BEFORE TRIAL.
(1) Amending as a Matter of Course. A party may amend its
pleading once as a matter of course within:
(A) 21 days after serving it, or
(B) if the pleading is one to which a responsive pleading
is required, 21 days after service of a responsive pleading
or 21 days after service of a motion under Rule 12(b), (e),
or (f), whichever is earlier.
(2) Other Amendments. In all other cases, a party may amend
its pleading only with the opposing party’s written consent or
the court’s leave. The court should freely give leave when justice so requires.
(3) Time to Respond. Unless the court orders otherwise, any
required response to an amended pleading must be made within the time remaining to respond to the original pleading or
within 14 days after service of the amended pleading, whichever is later.

36

Rule 15

FEDERAL RULES OF CIVIL PROCEDURE

24

(b) AMENDMENTS DURING AND AFTER TRIAL.
(1) Based on an Objection at Trial. If, at trial, a party objects
that evidence is not within the issues raised in the pleadings,
the court may permit the pleadings to be amended. The court
should freely permit an amendment when doing so will aid in
presenting the merits and the objecting party fails to satisfy
the court that the evidence would prejudice that party’s action or defense on the merits. The court may grant a continuance to enable the objecting party to meet the evidence.
(2) For Issues Tried by Consent. When an issue not raised by
the pleadings is tried by the parties’ express or implied consent, it must be treated in all respects as if raised in the pleadings. A party may move—at any time, even after judgment—
to amend the pleadings to conform them to the evidence and
to raise an unpleaded issue. But failure to amend does not affect the result of the trial of that issue.
(c) RELATION BACK OF AMENDMENTS.
(1) When an Amendment Relates Back. An amendment to a
pleading relates back to the date of the original pleading
when:
(A) the law that provides the applicable statute of limitations allows relation back;
(B) the amendment asserts a claim or defense that arose
out of the conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading; or
(C) the amendment changes the party or the naming of
the party against whom a claim is asserted, if Rule
15(c)(1)(B) is satisfied and if, within the period provided by
Rule 4(m) for serving the summons and complaint, the
party to be brought in by amendment:
(i) received such notice of the action that it will not
be prejudiced in defending on the merits; and
(ii) knew or should have known that the action
would have been brought against it, but for a mistake
concerning the proper party’s identity.
(2) Notice to the United States. When the United States or a
United States officer or agency is added as a defendant by
amendment, the notice requirements of Rule 15(c)(1)(C)(i) and
(ii) are satisfied if, during the stated period, process was delivered or mailed to the United States attorney or the United
States attorney’s designee, to the Attorney General of the
United States, or to the officer or agency.
(d) SUPPLEMENTAL PLEADINGS. On motion and reasonable notice,
the court may, on just terms, permit a party to serve a supplemental pleading setting out any transaction, occurrence, or event
that happened after the date of the pleading to be supplemented.
The court may permit supplementation even though the original
pleading is defective in stating a claim or defense. The court may
order that the opposing party plead to the supplemental pleading
within a specified time.
(As amended Jan. 21, 1963, eff. July 1, 1963; Feb. 28, 1966, eff. July
1, 1966; Mar. 2, 1987, eff. Aug. 1, 1987; Apr. 30, 1991, eff. Dec. 1, 1991;
Pub. L. 102–198, § 11(a), Dec. 9, 1991, 105 Stat. 1626; Apr. 22, 1993, eff.
Dec. 1, 1993; Apr. 30, 2007, eff. Dec. 1, 2007; Mar. 26, 2009, eff. Dec.
1, 2009.)

37

25

FEDERAL RULES OF CIVIL PROCEDURE

Rule 16

Rule 16. Pretrial Conferences; Scheduling; Management
(a) PURPOSES OF A PRETRIAL CONFERENCE. In any action, the
court may order the attorneys and any unrepresented parties to
appear for one or more pretrial conferences for such purposes as:
(1) expediting disposition of the action;
(2) establishing early and continuing control so that the case
will not be protracted because of lack of management;
(3) discouraging wasteful pretrial activities;
(4) improving the quality of the trial through more thorough
preparation; and
(5) facilitating settlement.
(b) SCHEDULING.
(1) Scheduling Order. Except in categories of actions exempted by local rule, the district judge—or a magistrate judge
when authorized by local rule—must issue a scheduling order:
(A) after receiving the parties’ report under Rule 26(f); or
(B) after consulting with the parties’ attorneys and any
unrepresented parties at a scheduling conference.
(2) Time to Issue. The judge must issue the scheduling order
as soon as practicable, but unless the judge finds good cause
for delay, the judge must issue it within the earlier of 90 days
after any defendant has been served with the complaint or 60
days after any defendant has appeared.
(3) Contents of the Order.
(A) Required Contents. The scheduling order must limit
the time to join other parties, amend the pleadings, complete discovery, and file motions.
(B) Permitted Contents. The scheduling order may:
(i) modify the timing of disclosures under Rules 26(a)
and 26(e)(1);
(ii) modify the extent of discovery;
(iii) provide for disclosure, discovery, or preservation
of electronically stored information;
(iv) include any agreements the parties reach for asserting claims of privilege or of protection as trialpreparation material after information is produced, including agreements reached under Federal Rule of Evidence 502;
(v) direct that before moving for an order relating to
discovery, the movant must request a conference with
the court;
(vi) set dates for pretrial conferences and for trial;
and
(vii) include other appropriate matters.
(4) Modifying a Schedule. A schedule may be modified only for
good cause and with the judge’s consent.
(c) ATTENDANCE AND MATTERS FOR CONSIDERATION AT A PRETRIAL
CONFERENCE.
(1) Attendance. A represented party must authorize at least
one of its attorneys to make stipulations and admissions
about all matters that can reasonably be anticipated for discussion at a pretrial conference. If appropriate, the court may
require that a party or its representative be present or reasonably available by other means to consider possible settlement.

38

Rule 16

FEDERAL RULES OF CIVIL PROCEDURE

26

(2) Matters for Consideration. At any pretrial conference, the
court may consider and take appropriate action on the following matters:
(A) formulating and simplifying the issues, and eliminating frivolous claims or defenses;
(B) amending the pleadings if necessary or desirable;
(C) obtaining admissions and stipulations about facts
and documents to avoid unnecessary proof, and ruling in
advance on the admissibility of evidence;
(D) avoiding unnecessary proof and cumulative evidence,
and limiting the use of testimony under Federal Rule of
Evidence 702;
(E) determining the appropriateness and timing of summary adjudication under Rule 56;
(F) controlling and scheduling discovery, including orders affecting disclosures and discovery under Rule 26 and
Rules 29 through 37;
(G) identifying witnesses and documents, scheduling the
filing and exchange of any pretrial briefs, and setting
dates for further conferences and for trial;
(H) referring matters to a magistrate judge or a master;
(I) settling the case and using special procedures to assist in resolving the dispute when authorized by statute or
local rule;
(J) determining the form and content of the pretrial
order;
(K) disposing of pending motions;
(L) adopting special procedures for managing potentially
difficult or protracted actions that may involve complex
issues, multiple parties, difficult legal questions, or unusual proof problems;
(M) ordering a separate trial under Rule 42(b) of a claim,
counterclaim, crossclaim, third-party claim, or particular
issue;
(N) ordering the presentation of evidence early in the
trial on a manageable issue that might, on the evidence,
be the basis for a judgment as a matter of law under Rule
50(a) or a judgment on partial findings under Rule 52(c);
(O) establishing a reasonable limit on the time allowed
to present evidence; and
(P) facilitating in other ways the just, speedy, and inexpensive disposition of the action.
(d) PRETRIAL ORDERS. After any conference under this rule, the
court should issue an order reciting the action taken. This order
controls the course of the action unless the court modifies it.
(e) FINAL PRETRIAL CONFERENCE AND ORDERS. The court may
hold a final pretrial conference to formulate a trial plan, including a plan to facilitate the admission of evidence. The conference
must be held as close to the start of trial as is reasonable, and
must be attended by at least one attorney who will conduct the
trial for each party and by any unrepresented party. The court
may modify the order issued after a final pretrial conference only
to prevent manifest injustice.

39

27

FEDERAL RULES OF CIVIL PROCEDURE

Rule 17

(f) SANCTIONS.
(1) In General. On motion or on its own, the court may issue
any just orders, including those authorized by Rule
37(b)(2)(A)(ii)–(vii), if a party or its attorney:
(A) fails to appear at a scheduling or other pretrial conference;
(B) is substantially unprepared to participate—or does
not participate in good faith—in the conference; or
(C) fails to obey a scheduling or other pretrial order.
(2) Imposing Fees and Costs. Instead of or in addition to any
other sanction, the court must order the party, its attorney,
or both to pay the reasonable expenses—including attorney’s
fees—incurred because of any noncompliance with this rule,
unless the noncompliance was substantially justified or other
circumstances make an award of expenses unjust.
(As amended Apr. 28, 1983, eff. Aug. 1, 1983; Mar. 2, 1987, eff. Aug.
1, 1987; Apr. 22, 1993, eff. Dec. 1, 1993; Apr. 12, 2006, eff. Dec. 1, 2006;
Apr. 30, 2007, eff. Dec. 1, 2007; Apr. 29, 2015, eff. Dec. 1, 2015.)
TITLE IV. PARTIES
Rule 17. Plaintiff and Defendant; Capacity; Public Officers
(a) REAL PARTY IN INTEREST.
(1) Designation in General. An action must be prosecuted in
the name of the real party in interest. The following may sue
in their own names without joining the person for whose benefit the action is brought:
(A) an executor;
(B) an administrator;
(C) a guardian;
(D) a bailee;
(E) a trustee of an express trust;
(F) a party with whom or in whose name a contract has
been made for another’s benefit; and
(G) a party authorized by statute.
(2) Action in the Name of the United States for Another’s Use or
Benefit. When a federal statute so provides, an action for another’s use or benefit must be brought in the name of the
United States.
(3) Joinder of the Real Party in Interest. The court may not
dismiss an action for failure to prosecute in the name of the
real party in interest until, after an objection, a reasonable
time has been allowed for the real party in interest to ratify,
join, or be substituted into the action. After ratification, joinder, or substitution, the action proceeds as if it had been originally commenced by the real party in interest.
(b) CAPACITY TO SUE OR BE SUED. Capacity to sue or be sued is
determined as follows:
(1) for an individual who is not acting in a representative capacity, by the law of the individual’s domicile;
(2) for a corporation, by the law under which it was organized; and
(3) for all other parties, by the law of the state where the
court is located, except that:

40

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WALTER SKIPPER

*

CIVIL ACTION

VERSUS

*

NUMBER:

18-6164

A&M DOCKSIDE REPAIR, INC.
and CASHMAN EQUIPMENT CORP.
*
*
*
*
*
*

*

SECTION:

R

*

MAGISTRATE: 4

AMENDED COMPLAINT
NOW INTO COURT, through undersigned counsel, comes the plaintiff, Walter Skipper,
a person of the full age of majority and resident of the State of Louisiana, and for his Amended
Complaint respectfully represents as follows:
1.
Plaintiff realleges and reavers each and every allegation of his original Complaint as if set
out here in full. A copy of the Complaint is annexed hereto as Exhibit 1.
2.
JURISDICTION
This Honorable Court has federal question jurisdiction pursuant to 28 U.S.C. 1331. In the
alternative, the Court has jurisdiction in admiralty pursuant to 28 U.S.C. 1333.
3.
Made defendants herein are:
1.

A&M DOCKSIDE REPAIR, INC., on information and belief, a corporation

authorized to do and doing business in the State of Louisiana and within the jurisdiction of this
Honorable Court.

41

2.

CASHMAN EQUIPMENT CORP., on information and belief, a corporation

authorized to do and doing business in the State of Louisiana and within the jurisdiction of this
Honorable Court, and at all times pertinent hereto, the owner and/or operator of the barge on which
plaintiff was injured.
3.

OSPREY LINE, LLC, on information and belief, a corporation authorized to do

and doing business in the State of Louisiana and within the jurisdiction of this Honorable Court,
and at all times pertinent hereto, the owner, owner pro hac vice, charterer and/or operator of the
barge on which plaintiff was injured.
4.
WALTER SKIPPER was at all times mentioned herein an employee of a third party, Helix
Resources, LLC., and the defendants herein are liable unto him pursuant to 33 U.S.C. § 905(b),
and/or pursuant to the General Maritime Law of the United States of America, and under the law
and statutes of the State of Louisiana, for the following reasons:
5.
On or about August 11, 2017, plaintiff was employed by a third party, Helix Resources,
LLC., as a blaster/painter. On that date, the plaintiff was performing his assigned duties aboard a
barge owned and/or operated by and/or chartered to the defendants, Cashman Equipment Corp.
and/or Osprey Line, LLC, which vessel was in the navigable waters of the United States and within
the jurisdiction of this Court in a shipyard owned and operated by the defendant, A&M Dockside
Repair, Inc. In the course of performing those duties, suddenly and without warning and due to
the negligence of the defendants and/or the vessel, plaintiff was caused to sustain severe and
disabling injuries when fell in an open manhole cover on the barge.

42

6.
Plaintiff was in no manner negligent. On information and belief, plaintiff alleges that the
sole and proximate cause of the accident and his injuries, as described herein, was the negligence
and/or failure of the defendants, and their employees, servants and/or agents and/or the vessel, in
carrying out their obligations and duties, individually and concurrently, in the following respects:
1.

Failure to provide plaintiff with a safe place in which to work;

2.

Failure to warn the plaintiff;

3.

Failure to warn plaintiff of the dangerous and unsafe conditions of the vessel;

4.

Failure to exercise reasonable care in discovering and correcting any and all unsafe
conditions existing on the vessel;

5.

Failure to have the vessel in such condition that the plaintiff could work with
reasonable safety;

6.

Failure to provide plaintiff with the proper equipment and/or personnel to
accomplish his job in a reasonably safe manner;

7.

Failure to provide competent and adequate supervisory authority;

8.

Hiring untrained and unskilled employees;

9.

Retaining employees found to be careless and/or unskilled;

10.

Breach of legally imposed duties of reasonable care owed by the defendant(s) to
the plaintiff;

11.

Other acts of negligence and conditions of unseaworthiness to be proven at the trial
of this case.
7.

Solely by reason of the negligence of the defendants and of the vessel, and other acts and
inactions described herein, plaintiff sustained serious injuries including but not limited to the
following: possible ruptured disks and nerve damage, as well as possible injuries to his bones,
muscles and joints, organs and tissues among other component parts of his head, back, ribs, legs,

43

feet, and hands. As a result thereof, plaintiff has in the past and will in the future: require
medicines, medical care, medical treatment, have to expend moneys and incur obligations for
treatment and care, suffer agonizing aches, pains, and mental anguish, and be disabled from
performing his usual duties, occupations and avocations.
8.
As a result of the aforesaid negligence, breach of duties, and other actions and inactions on
the part of the defendants herein, plaintiff has suffered injuries and damages for which defendants
are liable unto him, plus legal interest from the date of occurrence, a reasonable attorney’s fee, and
all costs of these proceedings.
WHEREFORE, plaintiff prays that this Amended Complaint be deemed good and
sufficient and, after service hereof and after due proceedings had and the expiration of all legal
delays herein, there be a judgment rendered in favor of the plaintiff, WALTER SKIPPER, and
against

defendants,

A&M

DOCKSIDE

REPAIR,

INC.,

CASHMAN

EQUIPMENT,

CORPORATION, and OSPREY LINE, LLC., as prayed for herein and in plaintiff’s original
Complaint, in damages in an amount to be determined at trial, together with interest from the date
of occurrence until paid, attorney’s fees, and all costs; and for any and all other relief which the
law and justice may provide.
RESPECTFULLY SUBMITTED:

__s/ David C. Whitmore__________________
LAWRENCE BLAKE JONES (7495)
DAVID C. WHITMORE (17864)
BLAKE JONES LAW FIRM, LLC
701 Poydras Street, Suite 4100
New Orleans, LA 70139
Telephone: (504) 525-4361
Facsimile: (504) 525-4380
Attorneys for Plaintiff, Walter Skipper

44

CERTIFICATE OF SERVICE
I do hereby certify that on the 12th day of October, 2018, a copy of the above and foregoing
pleading was electronically filed with the Clerk of Court using the CM/ECF system which will
send a notice of electronic filing to all counsel of record that have elected e-notification by
operation of the court's electronic filing system. I further certify that, on the aforementioned date,
I also served a copy of the foregoing pleading upon all counsel of record who are non-CM/ECF
participants via facsimile transmission and/or via hand delivery and/or via the United States mail,
postage prepaid and properly addressed.

_____s/ David C. Whitmore_____________

45

Case 2:18-cv-06164-SSV-KWR Document 18 Filed 11/01/18 Page 1 of 3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WALTER SKIPPER

NO. 18-6164

VERSUS

SECTION: “R” (4)

A&M DOCKSIDE REPAIR, INC. AND
CASHMAN EQUIPMENT CORP.

HON. SARAH S. VANCE
MAG. KAREN WELLS ROBY

ANSWER TO AMENDED COMPLAINT
NOW INTO COURT, through undersigned counsel, comes Defendant, A&M Dockside
Repair, Inc. (“A&M”), and for answer to the Amended Complaint of plaintiff, Walter Skipper,
alleges and avers upon information and belief as follows:
FIRST DEFENSE
A&M re-alleges and re-avers all answers and all defenses asserted in response to
Plaintiff’s original Complaint.
SECOND DEFENSE
1.
The allegations contained in Paragraph 1 of the Amended Complaint require no response
from A&M.
2.
The allegations contained in Paragraph 2 of the Amended Complaint are legal
conclusions that require no response from A&M.

1
PD.24755643.1

46

Case 2:18-cv-06164-SSV-KWR Document 18 Filed 11/01/18 Page 2 of 3

3.
Except to admit the allegations contained in Paragraph 3 of the Amended Complaint as
regards A&M, the remaining allegations contained in Paragraph 2 are denied for lack of
information or knowledge sufficient to justify a belief therein.
4.
Except to admit that Plaintiff was an employee of Helix Resources, LLC, the remaining
allegations contained in Paragraph 4 of the Amended Complaint are denied.
5.
Except to admit that Plaintiff was employed by Helix Resources, LLC as a blaster/painter
on August 11, 2017, the remaining allegations contained in Paragraph 5 of the Amended
Complaint are denied.
6.
The allegations contained in sections (1) through (11) of Paragraph 6 of the Amended
Complaint are denied.
7.
The allegations contained in Paragraph 7 of the Amended Complaint are denied.
8.
The allegations contained in Paragraph 8 of the Amended Complaint are denied.
WHEREFORE, the premises considered, A&M prays that this, its Answer, be deemed
good and sufficient and that after due proceedings had, there be a judgment in its favor and
against Plaintiff, dismissing the Amended Complaint at Plaintiff’s costs, and for all general and
equitable relief.

2
PD.24755643.1

47

Case 2:18-cv-06164-SSV-KWR Document 18 Filed 11/01/18 Page 3 of 3

Respectfully submitted,
PHELPS DUNBAR LLP

BY:

/s/ Rachael F. Gaudet
Thomas Kent Morrison (Bar #25802)
Colin B. Cambre (Bar #31083)
Rachael F. Gaudet (Bar #35771)
Canal Place | 365 Canal Street, Suite 2000
New Orleans, Louisiana 70130-6534
Telephone: 504-566-1311
Telecopier: 504-568-9130
Email: morrisok@phelps.com
cambrec@phelps.com
rachael.gaudet@phelps.com

ATTORNEYS FOR A&M DOCKSIDE REPAIR,
INC.
CERTIFICATE OF SERVICE
I hereby certify that on the 1st day of November, 2018, I electronically filed the
foregoing with the Clerk of Court by using the CM/ECF system which will send a notice of
electronic filing to all counsel of record.

/s/ Rachael F. Gaudet

3
PD.24755643.1

48

Case 2:18-cv-06164-SSV-KWR Document 30 Filed 02/13/19 Page 1 of 4

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

WALTER SKIPPER

*
* NO. 18-6164, SECTION: “R” (4)
VERSUS
*
* JUDGE SARAH S. VANCE.
A&M DOCKSIDE REPAIR, INC. AND
*
CASHMAN EQUIPMENT CORP.
* MAG. KAREN WELLS ROBY
*
***************************************************

ANSWER TO ORIGINAL AND AMENDED COMPLAINTS

NOW INTO COURT, through undersigned counsel, comes defendant, Helix Resources,
LLC (“Helix”), who in answer to the allegations of plaintiff’s original and amended complaints,
respectfully states:
FIRST DEFENSE
The complaints fail to state a claim upon which relief can be granted.
SECOND DEFENSE
AND NOW, without waiving any defenses, denials, claims, assertions, answers or
allegations, Helix responds to the complaint of Walter Skipper as follows:
1.
The allegations of paragraph 1 do not require a response from this defendant.
2.
The allegations of paragraph 2 do not require a response from this defendant.

49

Case 2:18-cv-06164-SSV-KWR Document 30 Filed 02/13/19 Page 2 of 4

3.
The allegations of paragraph 3 do not require a response from this defendant.
4.
The allegations of paragraph 4 are denied.
5.
The allegations of paragraph 5 are denied.
6.
The allegations of paragraph 6 do not require a response from this defendant, but if one is
needed, then the allegations are denied.
7.
The allegations of paragraph 7 are denied.
8.
The allegations of the prayer are denied.
9.
Helix Resources, LLC, adopts, affirms, pleads and incorporates herein by reference all
contents of the third party complaint filed by A&M Dockside Repair, Inc., along with all of the
affirmative defenses pled therein as if copied herein in extenso.
THIRD DEFENSE
AND NOW, without waiving any defenses, denials, claims, assertions, answers or
allegations, Helix responds to the amended complaint of Walter Skipper as follows:
1.
The allegations of paragraph 1 are denied.

50

Case 2:18-cv-06164-SSV-KWR Document 30 Filed 02/13/19 Page 3 of 4

2.
The allegations of paragraph 2 do not require a response from this defendant.
3.
The allegations of paragraph 3 do not require a response from this defendant.
4.
The allegations of paragraph 4 are denied.
5.
The allegations of paragraph 5 are denied as written.
6.
The allegations of paragraph 6 are denied.
7.
The allegations of paragraph 7 are denied.
8.
The allegations of paragraph 8 are denied.
9.
The allegations of the prayer are denied.
10.
Helix Resources, LLC, adopts, affirms, pleads and incorporates herein by reference all
contents of the third party complaint filed by A&M Dockside Repair, Inc., along with all of the
affirmative defenses pled therein as if copied herein in extenso.
WHEREFORE, defendant, Helix Resources, LLC prays that its Answer be deemed good
and sufficient and that after all legal delays are had there be judgment herein in favor of Helix

51

Case 2:18-cv-06164-SSV-KWR Document 30 Filed 02/13/19 Page 4 of 4

and against plaintiff, dismissing plaintiff’s claims with prejudice and at his costs, and for all
general and equitable relief.
Respectfully submitted,
CERTIFICATE OF SERVICE
I hereby certify that on the 13th day of
February 2019, I electronically filed the
foregoing with the Clerk of Court by using
CM/ECF system which will send a notice of
electronic filing to all known counsel of
record.

/s/John E. Unsworth, III
JOHN E. UNSWORTH, III

/s/John E. Unsworth, III
JOHN E. UNSWORTH, III (LBRN 26738)
JOHNSON, MORDOCK, UNSWORTH & YOUNG
One Galleria Blvd. Suite 1500
Metairie, LA 70001
Direct Line: 504-846-4114
Facsimile: 866-649-3893
Email: John.Unsworth@cna.com
Attorneys for Helix Resources, LLC

.

52

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 1 of 11

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WALTER SKIPPER

*
* NO. 18-6164, SECTION: “R” (4)
VERSUS
*
* JUDGE SARAH S. VANCE.
A&M DOCKSIDE REPAIR, INC. AND
*
CASHMAN EQUIPMENT CORP.
* MAG. KAREN WELLS ROBY
*
***************************************************
ANSWER TO THIRD PARTY COMPLAINT

NOW INTO COURT, through undersigned counsel, comes Helix Resources, LLC
(Helix), who in answer to the allegations of A&M Dockside Repair, Inc.’s (“A&M”) Third Party
Complaint, respectfully states:
FIRST DEFENSE
The third party complaint fails to state a claim upon which relief can be granted.
SECOND DEFENSE
AND NOW, without waiving any defenses, denials, claims, assertions, answers or
allegations, Helix responds to the third party complaint of A&M as follows:
1.
The allegations of paragraph 1 are admitted as to the status of Helix and denied as to
liability.
2.
The allegations of paragraph 2 are denied for lack of sufficient information to justify a
belief therein.

53

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 2 of 11

3.
The allegations of paragraph 3 are denied for lack of sufficient information to justify a
belief therein.
4.
The allegations of paragraph 4 do not require a response from this defendant, but if one is
needed, then the allegations are denied.
5.
The allegations of paragraph 5 are denied for lack of sufficient information to justify a
belief therein.
6.
The allegations of paragraph 6 are denied as written as the complete indemnity provision
is not quoted and therefore inaccurate.
7.
The allegations of paragraph 7 are denied.
8.
The allegations of paragraph 8 are admitted as Walter Skipper was an employee of Helix.
Any allegations as to implication of liability are denied.
9.
The allegations of paragraph 9 are denied as written.
10.
The allegations of paragraph 10 are denied.
11.
The allegations of paragraph 11 are denied as written.

54

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 3 of 11

12.
The allegations of the prayer are denied.
AND NOW, IN FURTHER ANSWERING, Helix hereby offers the following affirmative
defenses in response to all allegations of A&M’s third party complaint:
THIRD DEFENSE
Helix and A&M entered into a Service Agreement on September 6, 2016 (the
“Agreement”).
FOURTH DEFENSE
The Agreement defines “Contractor” as Helix and “Client” as A&M. The Agreement
contains the following indemnity provision:
6 (Second paragraph) Client shall indemnify, hold harmless and defend at its own
expense Contractor, Contractor’s parent, subsidiary and affiliated companies,
Contractor’s purchasers, and 2 officers, directors, employees, agents, contractors, insurers
and subcontractors of each (hereinafter collectively "Contractor Group") from against all
suits demands claims, fines, penalties, attorney's fees and actions of every type and
character by whomever brought, whenever occurring, suffered or incurred by Client,
Client’s parent subsidiary, and affiliated companies and the officers, directors,
employees, agents, contractors, insurers, and subcontractors of each (hereinafter
collectively "Client Group") without regard to the cause there of for any bodily injury
death or property damage or loss arising out of or resulting in any way from any
conditions or defects in the work, or from performance of the work even if same should
arise due to the concurrent negligence, strict liability or other legal fault of Contractor
Group or the unseaworthiness of any contractor owned or leased vessel excepting only
injury death or property damage or loss resulting solely from contractor's negligence and
without negligence or fault on the part of Client Group or any other party whomsoever.

FIFTH DEFENSE
Accordingly the Agreement requires A&M to “indemnify, hold harmless and defend”
Helix and its insurers for “all suits, demands, claims” that were “suffered or incurred” by Helix
employees.

55

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 4 of 11

SIXTH DEFENSE
The contract calls for A&M to defend Helix under the facts and circumstances of the
case.
SEVENTH DEFENSE
Helix is not the owner of the barge plaintiff was aboard when he was allegedly injured.
The owner of the barge is Cashman.
EIGHTH DEFENSE
In the event, and solely in the event, that liability is found to exist on the part of a person,
firm, or corporation for whom Helix is or may be responsible, all of which is at all times
specifically denied, Helix avers that Plaintiff was guilty of comparative fault constituting a
proximate cause of the alleged accident in question, which acts of comparative fault consist of
the following non-exclusive particulars:
a. Failing to keep a proper lookout for his own safety;
b. Failing to exercise reasonable and prudent care under the circumstances then existing;
c. Being inattentive to this physical surroundings;
d. Acting carelessly or recklessly under the circumstances;
e. Placing himself in a zone of danger;
f. Failing to take proper precautions for his own safety and/or well-being;
g. Failing to abide by safety rules, regulations and policies and/or procedures;
h. In general, in failing to do what he could have done and should have done to avoid
the incident; and
i. Other acts of negligence or fault that will be more fully shown at the trial of this
matter.

56

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 5 of 11

NINTH DEFENSE
Helix avers that the negligence of Plaintiff was a contributing or sole cause of the alleged
injuries, thus diminishing or barring Plaintiff’s recovery. Such negligence includes, but is not
limited to, failure to keep a proper watch, failure to exercise due care under the circumstances,
and all other negligent or wrongful acts or omissions that may be discovered or proven at trial in
this matter.
TENTH DEFENSE
Helix avers that if Plaintiff is entitled to recover from Helix, which right is expressly
denied, Plaintiff’s recovery is barred and/or reduced in proportion to the degrees or percentages
of fault attributable to Plaintiff and/or any other person or entity to whom or to which a
percentage of fault is attributed.
ELEVENTH DEFENSE
Helix avers that the alleged injuries, if any, were caused by acts or omissions or
conditions that are responsibilities of persons other than Helix and for whom Helix had no legal
responsibility or control and whose comparative fault is plead in bar, diminution, or mitigation of
any recovery by Plaintiff.
TWELFTH DEFENSE
Helix avers that the alleged injuries and damages, if any, were caused by superseding and
intervening acts and/or negligence and/or strict liability of parties over whom Helix had no
control and/or for whose actions Helix is not liable.
THIRTEENTH DEFENSE
Plaintiff’s demands are barred by failure to mitigate, minimize, or abate damages or by
his failure to provide Helix with adequate information about pre-existing medical conditions

57

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 6 of 11

FOURTEENTH DEFENSE
Helix avers that Plaintiff has not suffered any personal injuries as a result of the alleged
accident. Helix avers that, in the alternative, if Plaintiff has suffered personal injury damages
from the alleged accident, which Helix expressly denies, Plaintiff has fully recovered and is not
suffering ongoing damages.
FIFTEENTH DEFENSE
Helix avers that the injuries allegedly sustained by Plaintiff occurred as a result of preexisting or other medical conditions, causes, or injuries that are completely unrelated to Helix
and/or the alleged accident, and the existence of these pre-existing or other medical conditions,
causes, or injuries bars or diminishes the Plaintiff’s recovery sought.
SIXTEENTH DEFENSE
Helix avers that at all times relevant, Helix complied with all applicable laws, regulations
and standards.
SEVENTEENTH DEFENSE
Helix denies that it is liable to any extent as alleged in the First Amended Complaint, and
claim exoneration form all liability for all losses, damages and injuries incurred by Plaintiff as a
result of the allegations contained in the First Amended Complaint and for any other damages or
claims that exist or may arise, but have not been specifically pled.
EIGHTEENTH DEFENSE
Helix avers that Plaintiff has or may have received payment of medical expenses and/or
other benefits, including, but not limited to, under a policy or policies of health, accident and/or
hospitalization insurance, Medicare or Medicaid benefits and/or at a charity hospital or other
government hospital and/or Workers’ Compensation insurance, and has subrogated his rights and

58

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 7 of 11

claims to payment of said benefits and expenses to the person, form, corporation or entity issuing
said policy or benefits and therefore have no right of action against Helix for any of the amounts
so paid.
NINETEENTH DEFENSE
Helix specifically denies that the Plaintiff has a claim for punitive damages. Said
damages are unconstitutional and are prohibited under and violate the United States Constitution,
including but not limited to the provisions of the Eighth Amendment and Fourteenth Amendment
to and/or Article 1, Section 10 of the United States Constitution.

TWENTIETH DEFENSE
Helix claims a credit or set-off for all amounts previously paid to Plaintiff arising from in
any way the incident described in the Petition.
TWENTY-FIRST DEFENSE
Helix denies that Plaintiff is a Jones Act seaman. Plaintiff cannot satisfy the second
prong of the Chandris v. Latsis, 515 U.S. 347, test as Plaintiff cannot show that he has a
connection to a vessel in navigation or to an identifiable group of such vessels that is substantial
in terms of both its duration and nature. The evidence does not support a finding of Jones Act
seaman status.
TWENTY-SECOND DEFENSE
At all pertinent times hereto, upon information and belief, Helix did not have supervising
personnel on board at the time of the incident and relinquished control of Helix personnel to
others to supervise.

59

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 8 of 11

TWENTY-THIRD DEFENSE
Further in the alternative, defendants aver upon information and belief that there was no
condition or risk of unreasonable harm, that there was no risk that was reasonably foreseeable,
that defendants did not have actual or constructive notice of any risk or unreasonable condition
prior to the alleged occurrence, and that defendants exercised appropriate and reasonable care at
all times material and relevant.
TWENTY-FOURTH DEFENSE
There is an absence of evidence to suggest that the defendants owed or breached any duty
to plaintiff, or that this condition presented an unreasonable risk of harm to this repairman
plaintiff.
TWENTY-FIFTH DEFENSE
In this matter, the Celestine v. Union Oil Company of California, 94-C-1868 (La.
4/10/95) 652 So.2d 1299, 1300 factors that the court had to consider included, but were not
limited to "the social, moral, economic considerations, the degree of knowledge of the
repairman, the incentives or disincentives to the owner to repair the vice or defect, the
reasonableness of presuming that a particular repairman is cognizant of the particular risks, and
the ability of the repairman to minimize such risks..." 652 So.2d at 1304.26. This Honorable
Court should followed the Celestine analysis by considering (1) the plaintiff’s status as a
construction worker, and (2) whether the plaintiff knew or should have known of a particular
condition at a job site.

60

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 9 of 11

TWENTY-SIXTH DEFENSE
At all pertinent times, other defendants failed to supply the proper safety equipment to
plaintiff to start with on the job and other defendants were fully aware of putting their employees
in potentially unsafe conditions. As such, other defendants bear all responsibility.
TWENTY-SEVENTH DEFENSE
At all pertinent times hereto as a result of Mr. Skipper was on a mission for his employer
and performing employment related activities his exclusive remedy is pursuant to La.R.S.
23:1032, et. seq., i.e. worker’s compensation.
TWENTY-EIGHTH DEFENSE
At all pertinent times hereto, Helix was the employer of plaintiff, Skipper, who was
performing manual labor, pursuant to the La. Revised Statute 23:1061 and as such, plaintiff’s
exclusive remedy under the La. Revised Statute 23:1032 under the Workers’ Compensation Act
has no right to seek tort remedies from Helix, nor any other party to attempt to pass through
alleged fault to Helix as no Helix employees or supervisors were present at the time of the
incident and Helix relinquished control, supervision, and direction to A & M.
TWENTY-NINTH DEFENSE
Helix avers that complainant’s sole remedy against it is for compensation benefits under
Louisiana workers’ Compensation Act or, alternatively, under the Longshoremen’s and Harbor
Workers’ Compensation Act.
THIRTIETH DEFENSE
Helix avers that any injuries, damages or disabilities of complainant as alleged herein are
a result of physical or mental conditions that pre-existed the incident made the basis of this

61

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 10 of 11

lawsuit and were incurred in the normal progressive of those pre-existing conditions, or were due
to causes or conditions not related to the accident made the basis of this lawsuit.
THIRTY-FIRST DEFENSE
Third party defendant Helix would show that if complainant was injured, which is
specifically denied, such injury was caused by equipment and/or occurred in an area over which
this defendant had no control or authority.
THIRTY-SECOND DEFENSE
That this Honorable Court lacks subject matter jurisdiction as an exclusive remedy is in
workers’ compensation.
THIRTY-THIRD DEFENSE
Helix reserves the right to raise all affirmative defenses that may be revealed as a result
of discovery.
THIRTY-FOURTH DEFENSE
Answering Defendant had neither actual nor constructive notice of any alleged defect in
the premises.
THIRTY-FIFTH DEFENSE
Answering Defendant specifically contends that it had no duty to provide plaintiff with a
seaworthy vessel, and/or that such vessel was seaworthy in all manners and/or that Answering
Defendant provided plaintiff with an unseaworthy vessel.
THIRTY-SIXTH DEFENSE
In the further alternative, Answering Defendant specifically alleges and avers that any
damages allegedly sustained by the plaintiff were due to a fortuitous event, an Act of God, or
force majeure or other circumstances beyond Answering Defendant’s control or the
responsibility of Answering Defendant and were not proximately caused by any acts or

62

Case 2:18-cv-06164-SSV-KWR Document 29 Filed 02/13/19 Page 11 of 11

omissions on the part of Answering Defendant or any other person, party or entity for whom it
would be responsible.
WHEREFORE, Helix Resources, LLC, prays that this answer be deemed good and
sufficient, and that all delays and due proceedings had there be judgment rendered herein in
favor of Helix Resources, LLC, and against plaintiff in cross-claim, A&M Dockside Repair, Inc.,
dismissing its suit at its cost, and for all general and equitable relief.
Respectfully submitted,
CERTIFICATE OF SERVICE
I hereby certify that on the 13th day of
February 2019, I electronically filed the
foregoing with the Clerk of Court by using
CM/ECF system which will send a notice of
electronic filing to all known counsel of
record.

/s/John E. Unsworth, III
JOHN E. UNSWORTH, III

/s/John E. Unsworth, III
JOHN E. UNSWORTH, III (LBRN 26738)
JOHNSON, MORDOCK, UNSWORTH & YOUNG
One Galleria Blvd. Suite 1500
Metairie, LA 70001
Direct Line: 504-846-4114
Facsimile: 866-649-3893
Email: John.Unsworth@cna.com
Attorneys for Helix Resources, LLC

.

63

